                                                                Issue Date
                                                                    June 1, 2012
                                                                Audit Report Number
                                                                     2012-NY-1008




TO:        Sonia L. Burgos, Director, Office of Public Housing, Newark Field Office,
                                                       2FPH



FROM:       Edgar Moore, Regional Inspector General for Audit, New York, New Jersey,
                                                                2AGA

SUBJECT: Transactions Between the Housing Authority of the City of Perth Amboy, NJ,
         and its Nonprofit Subsidiary Did Not Always Comply With HUD Regulations

                                   HIGHLIGHTS

 What We Audited and Why

             We audited the Housing Authority of the City of Perth Amboy’s transactions with
             its nonprofit subsidiary, the Perth Amboy Redevelopment Team for
             Neighborhood Enterprise and Revitalization (PARTNER), in response to a hotline
             complaint. The audit objectives were to assess the merits of the complaint and
             determine whether Authority officials complied with provisions of the Authority’s
             regulatory agreement and other U.S. Department of Housing and Urban
             Development (HUD) financial and operational regulations when executing
             transactions with PARTNER. In addition, we performed a limited review of the
             Authority’s Family Self-Sufficiency (FSS) program because of the funding
             provided to it by PARTNER.

 What We Found
             The issues raised in the complaint allegations were factually correct, but no
             violation of HUD regulations was found (the complaint allegations are evaluated
             in appendix C). In addition, Authority officials complied with HUD regulations
             when they established and funded PARTNER with Section 8 administrative fee
           reserve funds in 2003; however, PARTNER had realized limited
           accomplishments.

           The Authority did not always comply with HUD regulations governing the
           execution and reporting of transactions with PARTNER. Specifically, the award
           of a social services contract to PARTNER did not comply with HUD procurement
           requirements, administrative expenses were not always adequately documented,
           and PARTNER activity was not properly reported. These deficiencies occurred
           because Authority officials misinterpreted HUD regulations pertaining to funds
           provided to PARTNER and believed that funds provided to PARTNER could be
           used at their discretion. Limited review of the Authority’s FSS program disclosed
           that the program was operated in accordance with HUD regulations.

What We Recommend

           We recommend that the Director, Office of Public and Indian Housing, Newark
           field office, instruct Authority officials to (1) submit a specific plan to HUD for
           approval of the use of the $286,782 in unspent funds held by PARTNER or
           reimburse the Authority’s Section 8 administrative fee reserve account, (2) justify
           the award of the social services contract to PARTNER, (3) strengthen
           documentation for the allocation of Authority officials’ time spent on PARTNER’s
           activities, and (4) ensure that the Authority’s component units are properly included
           in reports to adequately inform HUD of Authority activities.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-4.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response

           We discussed the results of our review during the audit and at an exit conference
           held on May 11, 2012. On May 15, 2012, Authority officials provided their
           written comments and generally agreed with the draft report findings. The
           complete text of the Authority’s response, along with our evaluation of that
           response, can be found in appendix B of this report.




                                             2
                            TABLE OF CONTENTS

Background and Objectives                                                       4

Results of Audit

      Finding: The Authority’s Transactions With Its Nonprofit Subsidiary Did   5
               Not Always Comply With HUD Regulations

Scope and Methodology                                                           13

Internal Controls                                                               14

Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use            16
   B. Auditee Comments and OIG’s Evaluation                                     17
   C. Evaluation of Complaint Allegations                                       25




                                            3
                      BACKGROUND AND OBJECTIVE

The Housing Authority of the City of Perth Amboy, located in Perth Amboy, NJ, was
incorporated as a not-for-profit public corporation in 1938 to develop, acquire, and administer
housing programs for low- and moderate-income families residing in Perth Amboy. The
Authority is governed by a seven-member board of commissioners. The board establishes policy
affecting the Authority and appoints an executive director to manage the Authority’s daily
operations.

The Authority owns and operates five low-rent developments comprised of 614 units, and
another mix-financed development with 31 low-rent units and 6 project-based Section 8 units. It
administers 814 Section 8 vouchers; operates Family Self-Sufficiency (FSS), Resident
Opportunity and Self-Sufficiency, and home-ownership counseling programs; and receives
funding from the U.S. Department of Housing and Urban Development’s (HUD) Public Housing
Capital Fund program, as well as from local and State governments. Total funding in fiscal years
2010 and 2011 was approximately $12.4 million and $11.8 million, respectively.

The Authority established the Perth Amboy Redevelopment Team for Neighborhood Enterprise
and Revitalization (PARTNER) as an Internal Revenue Code Section 501(c)(3) nonprofit
subsidiary in 2003 to provide service and support to promote economic opportunity and self-
sufficiency, as well as housing counseling and education, to low- and moderate-income
individuals and families. The Authority transferred $600,000 from its Section 8 administrative
fee reserve funds to PARTNER as startup funds. PARTNER is governed by a five-member
board of directors. From its inception through December 2007, two of PARTNER’s five board
members were Authority commissioners, and another was an Authority employee. Therefore,
the Authority directed a majority of PARTNER’s board through 2007. Since January 2008, the
number of authorized board members and the ratio of Authority-associated members has varied.

The audit objectives were to assess the merits of a hotline complaint and determine whether
Authority officials complied with provisions of the Authority’s regulatory agreement and other
HUD financial and operational regulations in establishing and executing transactions with
PARTNER. In addition, we performed a limited review of the Authority’s FSS program because
of the funding provided to it by PARTNER.




                                               4
                                RESULTS OF AUDIT


Finding: The Authority’s Transactions With Its Nonprofit Subsidiary
         Did Not Always Comply With HUD Regulations
Authority officials complied with HUD regulations when they established and funded
PARTNER with Section 8 administrative fee reserve funds in 2003; however, PARTNER had
realized limited accomplishments. In addition, officials did not always comply with HUD
regulations governing the execution and reporting of transactions with PARTNER. Specifically,
the award of a social services contract to PARTNER did not comply with HUD procurement
requirements, administrative expenses were not always adequately documented, and PARTNER
activity was not properly reported. These deficiencies occurred because Authority officials
misinterpreted HUD regulations pertaining to funds provided to PARTNER and believed that
funds provided to PARTNER could be used at their discretion. As a result, (1) $286,782 of the
initial startup funds provided to PARTNER had not been spent as of December 31, 2011, (2)
$156,250 awarded to PARTNER for a social services contract was not adequately documented,
(3) staff and consultant expenses allocated between PARTNER and the Authority were not
adequately documented, and (4) HUD was not adequately informed of the transfer and use of the
Section 8 administrative fee reserve funds held by PARTNER. Limited review of the
Authority’s FSS program disclosed that the program was operated in accordance with HUD
regulations.



 The Formation and Funding of
 PARTNER Complied With
 Regulations

              Authority officials complied with HUD regulations when they established and
              funded PARTNER with Section 8 administrative fee reserve funds in March, 2003.
              Regulations at 24 CFR (Code of Federal Regulations) 982.155 provide that a public
              housing authority may use Section 8 administrative fee reserve funds for other
              housing purposes permitted by State and local law.

              Authority officials established PARTNER as an Internal Revenue Code Section
              501(c)(3) nonprofit organization to provide economic and social opportunities, as
              well as housing, for low- and moderate-income individuals and families. The
              Authority’s board of commissioners approved the transfer of $300,000 from the
              Authority’s Section 8 administrative fee reserves to PARTNER on March 13, 2003
              (retroactive to January 1, 2003). In approving the transfer, the board minutes
              reported that the funds were to be earmarked for housing and other related purposes.
              The minutes also noted the board’s concern that the reserve funds would be subject




                                               5
                 to recapture by HUD.1 Board officials expected to have a balance of $667,691 in the
                 Authority’s administrative fee reserve account as of March 31, 2004. The board
                 approved another $300,000 transfer on August 12, 2003.

    Limited Accomplishments Were
    Realized by PARTNER

                 PARTNER had realized limited accomplishments in the furtherance of its mission
                 since its funding in 2003 with the Authority’s Section 8 administrative fee reserve
                 funds. The majority of the transferred administrative fee reserves had been
                 expended for PARTNER salary and administrative expenses, and as of December
                 31, 2011, $286,782 remained unspent. HUD public and Indian housing Notices
                 PIH 2004-7 and 2005-1 provide that Section 8 administrative fee reserve funds
                 must be expended to be considered used for other housing purposes and the
                 transfer of amounts from the administrative fee reserve to another non-Section 8
                 program account does not constitute use of the reserves for other housing
                 purposes.

                 From its inception through December 31, 2011, PARTNER had realized receipts
                 of approximately $752,351, of which $650,000, or 86 percent, was provided by
                 the Authority; $30,500 was granted by private entities; and the remaining $71,851
                 was generated from consulting services provided under contract to three nonlocal
                 housing authorities. While PARTNER was formed to provide economic, social,
                 and housing opportunities to low- and moderate-income individuals and families,
                 activity in the furtherance of its mission had been limited. From its formation
                 through December 31, 2011, PARTNER had incurred administrative expenses of
                 $252,218, representing 34 percent of total receipts, of which $217,848, or 86
                 percent, was for employee and contractor expense. During the same period,
                 PARTNER expended approximately $110,000,2 representing 15 percent of total
                 revenue, for the following activities, which could be considered to be for housing-
                 related purposes related to its mission:

                      Scholarships: $21,000 was disbursed to 21 of the Authority’s low-rent and
                      Section 8 tenants from 2004 to 2008, and $9,000 was disbursed to 9 tenants in
                      2011 from social services contract funds awarded by the Authority.

                      Authority’s home-ownership counseling program: $40,000 was provided in
                      2010 and 2011 from PARTNER’s Section 8 administrative fee reserve funds
                      for the Authority’s home-ownership counseling services, which provided
                      participants with essential knowledge to navigate through the home-buying
                      process and long-term successful home ownership. While PARTNER’s board

1
  Fiscal year 2003 appropriation legislation required HUD to recapture public housing authorities’ administrative
fees that exceeded 105 percent of the fees earned in 2002.
2
  This amount includes $40,000 given back to the Authority from a $50,000 installment on a contract awarded by the
Authority.

                                                        6
               of directors passed resolutions to provide $15,000 in 2007 and 2010 to fund a
               home-ownership manager position at the Authority, the funds were not
               provided. Similarly, while resolutions were approved in 2009 and 2010 to
               provide $20,000 annually for administrative costs for the Authority’s home-
               ownership counseling program, no funds were provided until 2010.

              Authority’s FSS and home-ownership programs: $40,000 of the $50,000
              awarded to PARTNER by the Authority to provide social services was
              transferred back to the Authority in 2011 to pay administrative expenses of the
              Authority’s FSS and home-ownership programs. Consequently, PARTNER
              did not provide any services under this contract; it merely provided funds
              already awarded.

           Authority officials acknowledged the limited redevelopment activity of
           PARTNER but noted that, while they planned for PARTNER to participate in one
           of the Authority’s redevelopment projects with the City of Perth Amboy, the
           project was suspended in 2005 when the City lacked the funds to purchase the
           Authority’s property. Authority officials further stated that they hoped
           PARTNER would participate in future housing redevelopment activities with the
           Authority.

The Authority Improperly
Awarded a Social Services
Contract

           Authority officials awarded PARTNER a $250,000 social services contract in
           November 2010 through a noncompetitive, sole source procurement without an
           adequate cost reasonableness analysis and qualification assessment as required by
           HUD regulations. Regulations at 24 CFR 85.36 require that all procurement
           transactions be conducted in a manner providing full and open competition.
           Regulations at 24 CFR 943.148 require a public housing authority to maintain
           documentation to substantiate the cost reasonableness of its selection of any entities
           procured and the unique qualification of the entity if a noncompetitive, sole source
           procurement method is used to acquire social services.

           The Authority’s board approved funding the $250,000 contract with program
           income generated from the Authority’s Parkview Mixed Finance Redevelopment
           Project. Since HUD had provided 62.5 percent of the funding for this project from
           Replacement Housing Factor grants, 62.5 percent of the $250,000, or $156,250,
           should be subject to HUD procurement regulations.

           The contract provided that the $250,000 would be distributed to PARTNER in five
           annual increments of $50,000 to subsidize the following programs:

           -- $10,000 for a scholarship program,
           -- $20,000 for the Authority’s home-ownership program, and

                                              7
           -- $20,000 for the Authority’s FSS program.

           Authority officials explained that transfer of the funds to PARTNER would provide
           flexibility in their use for other housing purposes. They believed that a cost
           reasonableness study was not necessary because the funds were going to be used to
           fund scholarships and support the Authority’s FSS and home-ownership programs.
           They further noted that a qualification assessment was unnecessary because
           PARTNER was an affiliate and they were aware of its operations. However, the
           qualification assessment was the Authority officials’ opinion and was not
           appropriately supported as part of the procurement process in accordance with
           applicable regulations. As a result, HUD lacked assurance that services would be
           procured at the most efficient and effective price. We attribute this deficiency to
           Authority officials’ misinterpretation of HUD procurement regulations.

           Further, the Authority certified in exhibit H of the Parkview annual contributions
           contract amendment with HUD that any program income generated from the project
           would be used only for specified eligible and approved activities, such as affordable
           housing purposes. However, the social services contract did not adequately provide
           for an evaluation of performance because it did not specify outcome measures or a
           timeframe for completion. In addition, while, the contract required that PARTNER
           submit an annual report to the Authority on the use of the funds, the required report
           was not submitted. Consequently, Authority officials were unable to demonstrate
           how the redevelopment project’s program income was used for affordable housing
           purposes.

           Further, on December 31, 2011, PARTNER transferred $40,000 of the first $50,000
           increment received under the contract to the Authority to fund the Authority’s home-
           ownership counseling and FSS programs. Authority officials explained that this
           transfer occurred because PARTNER was not a HUD-certified counseling agency,
           and the Authority was, but lacked funding for the program. Therefore, PARTNER
           did not carry out any home-ownership counseling or family self-sufficiency social
           services.

Administrative Costs Were
Not Always Adequately
Documented

           Documentation for the allocation of employee costs between the Authority and
           PARTNER was not adequate to ensure that costs were properly allocated. This
           weakness existed because the Authority and PARTNER lacked adequate financial
           controls to ensure the proper allocation of costs among various activities that
           involved HUD funds.

           Office of Management and Budget Circular A-87 provides that a cost is allocable
           to a particular cost objective if the goods or services involved are chargeable or

                                             8
                assignable to the cost objective in accordance with the relative benefits received.
                The annual contributions contract between the Authority and HUD requires that
                the Authority maintain complete and accurate books of account for the
                Authority’s projects in a manner to permit the preparation of statements and
                reports in accordance with HUD requirements and to permit a timely and effective
                audit.

                The Authority’s executive director, secretary, and accountant3 are employees of
                PARTNER, and PARTNER also hired other employees of the Authority to work
                on its activities. PARTNER was to reimburse the Authority for any time its
                employees spent on PARTNER activity during their routine Authority work day.
                However, Authority and PARTNER officials did not maintain adequate time
                distribution records to ensure that costs incurred by employees who worked on
                both Authority and PARTNER activities were properly allocated. While records
                did record times worked, the records were not specific as to start and end times of
                tasks performed and lacked the specific tasks in which the staff was engaged. For
                example, one Authority staff person claimed 8 hours of work for PARTNER in 1
                day—6 hours during the employee’s regular working hours as an employee of the
                Authority and 2 hours during the employee’s personal time. PARTNER
                reimbursed the Authority for the 6 hours and paid the employee for the 2 hours in
                addition to the employee’s annual salary as a PARTNER employee. However,
                PARTNER’s time records showed that the employee worked an additional 4
                hours for PARTNER. Without detailed information on start and end times, we
                were unable to determine whether the allocation of employee cost between the
                Authority and PARTNER was proper. In the case of another Authority employee
                who also worked as an employee of PARTNER, the time records did not specify
                the projects on which the employee worked, and the hours recorded on the invoice
                did not always reconcile with the supporting timesheets.

                In addition, PARTNER lacked documentation showing that its employee and
                consultant compensation was reasonable. In response to an independent auditor
                recommendation in 2011, PARTNER adopted a spending policy that established
                principles for determining allowable costs. This policy provided that
                compensation for personal service is considered reasonable if it is comparable to
                similar work in the industry and performed by employees qualified to perform the
                work required. PARTNER lacked documentation showing that an analysis was
                performed to determine the reasonableness of compensation paid.

    PARTNER Activity Was Not
    Always Adequately Reported

                Authority officials did not always adequately report PARTNER activity because
                the Authority’s financial statements did not disclose the financial activity of

3
 The accountant provided services to PARTNER as a consultant from March 2003 through June 30, 2010, after
which the accountant’s services were provided as an employee.

                                                      9
                PARTNER while it was a component unit. As a result, HUD was not adequately
                informed of the transfer and subsequent status of the Section 8 administrative fee
                reserve funds held by PARTNER. This condition occurred because Authority
                officials believed that PARTNER was not a component unit and, therefore,
                consolidated financial statements were not required.

                Regulations at 24 CFR 85.20 require housing authorities to maintain financial
                records that are accurate and current and adequately identify the source and
                application of funds provided for assisted activities. In addition, HUD’s Real
                Estate Assessment Center guidance4 requires public housing authorities to follow
                Government Accounting Standards Board (GASB) Statement 14,5 which provides
                for consolidated financial statements of component units. GASB 39 provides that
                an entity that meets all of the following criteria should be presented as a
                component unit in consolidated financial statements:

                    The economic resources received or held by the component unit are entirely or
                    almost entirely for the direct benefit of the authority, its component units, or
                    its constituents;

                    The authority or its component units is entitled to or has the ability to access a
                    majority of the economic resources held by the component unit, and

                    The economic resources received or held by the component unit that the
                    authority is entitled to or has the ability to otherwise access are significant to
                    the authority.

                Although the degree of control the Authority could exercise over PARTNER
                varied as the composition of PARTNER’s board changed, PARTNER appeared to
                have met the GASB definition of a component unit through July 2008 when
                Authority commissioners or employees represented 50 percent or more of
                PARTNER’s board members.

    The FSS Program Was
    Adequately Administered

                The Authority administered its FSS program in accordance with HUD regulations
                at 24 CFR 984.201. The purpose of the FSS program is to promote the
                development of local strategies to coordinate the use of housing assistance with
                public and private resources to enable eligible families to achieve economic
                independence and self-sufficiency. The Authority operated its program in
                compliance with its FSS action plan, which was approved by HUD. Under the
                program, participants execute a contract to enable them to reach specified goals,

4
  Real Estate Assessment Center Generally Accepted Accounting Principles (GAAP) Flier Volume1, Issue 3.
5
  GASB 14 was amended by GASB 39, which provided further guidance on determining when an entity should be
reported as a component unit.

                                                    10
             and the Authority maintains an escrow account for them, which is provided to
             them upon successful completion of the contract. During our audit period from
             March 2003 through December 2011, 130 participants were enrolled in the
             program, 23 successfully completed the program, 31 did not successfully
             complete their contract, and 76 remained active.

             Limited testing of FSS expenditures and participant case files disclosed that funds
             were used for eligible and reasonable costs, participants were properly enrolled,
             contracts were established in accordance with regulations, escrow accounts were
             accurately calculated and reported, and escrow funds were disbursed for approved
             purposes


Conclusion

             While Authority officials complied with HUD regulations in the transfer of
             $600,000 in Authority Section 8 administrative fee reserve funds to form
             PARTNER, PARTNER had engaged in limited activity in the furtherance of its
             mission, and transactions between the Authority and PARTNER did not always
             comply with HUD regulations. Specifically, the award of a social services contract
             to PARTNER did not comply with HUD procurement requirements, administrative
             expenses were not always adequately documented, and PARTNER activity was not
             properly reported.

Recommendations

             We recommend that the Director of the New Jersey Office of Public and Indian
             Housing instruct Authority officials to

             1A. Submit a specific plan to HUD for approval of PARTNER’s planned use of
                 the $286,782 in unspent Section 8 administrative fee reserve funds or
                 reimburse the funds to the Authority’s Section 8 administrative fee reserve
                 account to be awarded to PARTNER as funds are needed for expenditures
                 related to eligible activities.

             1B. Provide supporting documentation to justify the award of the $250,000 (of
                 which $156,250 is subject to HUD regulation) social services contract to
                 PARTNER and provide specific services and outcomes to be realized with the
                 use of the funds or reimburse the funds to the Authority’s Section 8
                 administrative fee reserve account.

             1C. Strengthen controls over procurement to provide HUD assurance that goods
                 and services are obtained under the most advantageous terms.




                                             11
1D. Strengthen controls over cost allocation and time distribution records to assure
    HUD that Authority officials’ time spent on PARTNER’s activities is properly
    recorded.

1E. Strengthen controls over employee and consultant compensation to comply
    with PARTNER’s spending policy guidelines requiring that costs be
    reasonable in comparison to amounts paid by similar organizations.

1F. Improve controls over financial reporting to ensure that component units are
    included in annual financial reports submitted to HUD to adequately inform
    HUD of the activities of the Authority and its component units.




                                 12
                         SCOPE AND METHODOLOGY

We performed the audit fieldwork from September 2011 through February 2012 at the
Authority’s office located at 881 Amboy Avenue, Perth Amboy, NJ. The audit generally
covered the period from the inception of PARTNER in March 2003 through December 31, 2011,
and was extended as needed to accomplish the audit objectives.

To accomplish the audit objectives, we performed the following steps:

       Reviewed relevant HUD regulations, program requirements, and applicable laws.
       Obtained an understanding of the Authority’s management controls and procedures.
       Interviewed appropriate HUD and Authority officials.
       Reviewed reports from HUD systems, such as the Line of Credit Control System, the
       Public Housing Authority Financial Accounting Subsystem, and the Public and Indian
       Housing Information Center system. Assessment of the reliability of the data in these
       systems was limited to the data sampled, which was reconciled to the Authority’s
       records.
       Reviewed Authority and PARTNER files and records, including incorporation files,
       redevelopment plans, financial data schedules, financial statements, general ledgers, bank
       statements, and staff timesheets.
       Reviewed HUD monitoring reports and independent accountant audit reports of the
       Authority and PARTNER.
       Reviewed contracts signed between HUD and the Authority and the Authority and
       PARTNER and related procurement procedures.
       Reviewed all significant transactions between the Authority and PARTNER during the
       period 2003 through 2011.
       Tested all PARTNER disbursements in 2009. We selected 2009 because it was the year with
       the most disbursements, $84,039, which represented 24 percent of total PARTNER
       expenditures of $354,800 from 2003 to 2010.
       Tested all 30 invoices amounting to $30,000 for the scholarship program and reviewed the
       selection procedures of the recipients.
       Reviewed all drawdowns from the 2008 FSS grant to determine whether funds were drawn
       down for eligible purposes and tested five FSS participant files to ensure that participants and
       the Authority complied with program requirements.

We conducted our audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                                 13
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations, as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

                      Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

                      Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

                      Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

                      Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to the effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

                                                 14
Significant Deficiencies

             Based on our review, we believe that the following items are significant deficiencies:

                The Authority did not have adequate controls over compliance with laws and
                regulations, as it did not always comply with HUD regulations when
                executing transactions with its nonprofit organization, PARTNER (see
                finding).

                The Authority did not implement effective controls to safeguard assets when
                social services were not properly procured and activities related to Section 8
                administrative fee reserve funds were not reported (see finding).




                                              15
                                   APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETER USE


              Recommendation                                 Funds to be put
                  number            Unsupported 1/           to better use 2/
                     1A                                          $286,782
                     1B                  $156,250
                    Total                $156,250                $286,782

1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, if the Authority implements our
     recommendation to provide a specific plan for the expenditure of the $286,782 in unspent
     administrative fee reserve funds transferred to PARTNER or otherwise return these funds
     to the Authority, HUD will be assured that the funds will be properly spent.




                                            16
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         17
Ref to OIG Evaluation   Auditee Comments




Comment 1




                         18
Ref to OIG Evaluation   Auditee Comments




Comment 1




                         19
Ref to OIG Evaluation   Auditee Comments




Comment 2




Comment 3




Comment 4




                         20
Ref to OIG Evaluation   Auditee Comments




Comment 5




Comment 6




Comment 7




                         21
Ref to OIG Evaluation   Auditee Comments




Comment 8



Comment 9




                         22
                          OIG Evaluation of Auditee Comments

Comment 1    Authority officials state that the report addressed only a few of PARTNER’s
             activities in concluding that PARTNER realized limited accomplishments, and
             that PARTNER took numerous actions, some of which unfortunately were not
             realized due to circumstances beyond its control. This report does acknowledge
             that some of PARTNER’s planned activities were not accomplished due to factors
             outside its control; nevertheless, while PARTNER was formed to provide
             economic, social, and housing opportunities to low- and moderate-income
             individuals and families, activities in the furtherance of its mission had been
             limited. As noted in the report, from its formation in March 2003 through
             December 31, 2011, PARTNER had incurred administrative expenses of
             $252,218, representing 34 percent of total receipts, of which $217,848, or 86
             percent, was for employee and contractor expenses. Therefore, we recommend
             that Authority officials submit a plan for HUD’s approval specifying the planned
             PARTNER activity to be financed from the unspent Section 8 administrative fee
             reserves.

Comment 2    As stated by Authority officials, regulations would permit award of a sole source
             procurement provided that cost reasonableness and uniqueness could be
             documented. However, Authority officials acknowledge that they did not
             officially document cost reasonableness when contracting with PARTNER to
             provide social services on the belief that PARTNER’s programs were unique and
             the cost was reasonable based on the fact that the program would be carried out
             by Authority staff at cost. Accordingly, we do not believe that the Authority has
             adequately documented the cost reasonableness and uniqueness as required by
             HUD regulations.

Comment 3    Our limited review of the Authority’s Family Self-Sufficiency Program concluded
             that it was administered in accordance with HUD regulations; however,
             PARTNER’s involvement with this Program was limited to returning to the
             Authority the funds Authority officials awarded it through the social service
             contract so that the Authority could use the funds to run the Program and pay the
             associated administrative expenses.

Comment 4 Regarding cost reasonableness, Authority officials state that there was no
          additional cost to the Authority as a result of the transfer of funds. However,
          since PARTNER had become an affiliate, rather than an instrumentality of the
          Authority in 2008, it was independent of the Authority, which no longer had legal
          control over PARTNER’s assets, operations, and management. As a result, the
          Authority did not have control over the funds once transferred to PARTNER.
          Therefore, at this point the use of proper procurement procedures were required to
          ensure that services would be obtained at the best price.

Comment 5    Authority officials noted that HUD does not provide specific guidance on the
             preparation of timesheets to record Authority staff time spent on PARTNER

                                             23
            activities, and they believed that the time sheets they maintained were
            appropriate. Nevertheless, Authority officials stated that they have already
            implemented the suggested recommendation to maintain more information on
            time sheets; however, they did not provide specifics. As such, the
            recommendation will be resolved during audit resolution process.

Comment 6   Authority officials stated that an independent auditor concluded that
            compensation paid to PARTNER employees and consultants was reasonable
            based on their qualifications. However, at the time of our audit, PARTNER
            lacked documentation to support that an employee compensation reasonableness
            analysis was performed by comparing the personal services to similar work in the
            industry. As a result, we recommend the Authority officials strengthen controls
            over future employee and consultant compensation to comply with PARTNER’s
            spending policy guidelines, which were established in response to the independent
            auditor’s recommendation.

Comment 7   Authority officials state that in 2003 HUD guidance on reporting component units
            was not clear. However, in 1999 HUD’s Real Estate Assessment Center issued its
            “Generally Accepted Accounting Principle Flier”, which provides detailed
            guidance for financial reporting of public housing authorities. Additionally,
            Authority officials state that the transfer of funds was clearly reflected in its
            financial statements. We acknowledge that the Authority reported the first
            $300,000 transfer to PARTNER in its 2003 Financial Data Schedule (FDS) as an
            equity transferred to a non-profit corporation. However, the name of the entity to
            which the transfer was made was not mentioned, and its affiliation was not
            disclosed; further, the second $300,000 transfer was reported as a general expense
            payment to PARTNER; therefore, we disagree that the transfer of funds was
            clearly reported. In addition, the relationship between PARTNER and the
            Authority and subsequent activities of PARTNER were never disclosed.
            Nevertheless, Authority officials acknowledge that now the guidance is clearer
            and they do not see an issue in the future should similar circumstances arise.

Comment 8   Authority officials agree with all the proposed report recommendations.

Comment 9   The review of the complaint allegations disclosed that the complaint issues were
            factually correct, but did not indicate any non-compliance with HUD regulations.
            Nevertheless, the audit disclosed other issues of non-compliance and internal
            control weaknesses in the execution and reporting of transactions between the
            Authority and PARTNER, and Authority officials have agreed to take actions that
            are responsive to the report recommendations.




                                            24
Appendix C

           EVALUATION OF COMPLAINT ALLEGATIONS
Allegation #1: The Authority’s executive director, attorney, accountant, and executive
               secretary financially benefited by forming PARTNER and drawing a salary
               from PARTNER; thus, it created the appearance of conflict of interest.

The issue is factually correct in that the subject parties did receive financial benefit by their
service to PARTNER and, therefore, an appearance of a conflict of interest could be found;
however, there is no violation of HUD regulations. The U.S. Housing Act of 1937 provides that
“notwithstanding any other provision of law, a public housing agency may (A) form and operate
wholly owned or controlled subsidiaries…and other affiliates, any of which may be directed,
managed, or controlled by the same persons who constitute the board of directors or similar
governing body of the public housing agency, or who serve as employees or staff of the public
housing agency; or (B) enter into joint ventures, partnerships, or other business arrangements
with, or contract with, any person, organization, entity, or governmental unit…(ii) for the
purpose of providing or arranging for the provision of supportive social services.” HUD
encourages public housing authorities to establish entities to accomplish economic development
and generate additional sources of revenue. Further, HUD Notice PIH 2007-15 provides that
there is no conflict of interest as prohibited in an authority’s annual contributions contract with
HUD when an agent of the authority receives a normal and customary compensation package for
employment by an affiliate or instrumentality such as PARTNER. However, as noted in this
report section entitled “Administrative Costs Were Not Always Adequately Documented.”
PARTNER officials had inadequately documented that the compensation paid was reasonable or
customary.

Allegation #2: Board members financially benefited by charging dinner expenses disguised
               as meeting expenses.

The issue has some merit, but there is no violation of HUD regulations. A review of
PARTNER’s financial records disclosed that $3,550 was expended for meals at 10 board
meetings during the period 2003 through 2011. This expense represents less than 1 percent of
total expenses of $443,000 incurred during the period, and HUD regulations allow for such
expenses in limited circumstances. In addition, the timing, location, and nature of PARTNER
board meetings would generally not be subject to HUD regulation but, rather, State law, and
PARTNER’s spending policy guidelines provide that meals and other specified expenses
incurred in connection with meetings and conferences are allowable. Accordingly, no exception
is taken.

Allegation #3: A board member’s relative received a scholarship awarded by PARTNER.

The issue is factually correct, but there is no violation of HUD regulations. While a review of
PARTNER’s records disclosed that a scholarship was awarded to a board member’s relative, the
award was made in accordance with PARTNER’s scholarship program guidelines, and the
selection was found to be adequately justified. Accordingly, no exception is taken.

                                                25
